~

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Brief of Amicus Curiae International
Cannabis Bar Association in Support of the Petition
for Writ of Certiorari in MARVIN WASHINGTON, ET AL.,
V. WILLIAM P. BARR, ATTORNEY GENERAL, ET AL., was
sent via Three Day Service to the U.S. Supreme Court,
and 3 copies were sent via Three Day Service and email to the following parties listed below, this 14th day
of September, 2020:
Michael Steven Hiller
Hiller, PC
641 Lexington Avenue, 29th Fl
New York, NY 10022
(646) 408-5995
mhiller@hillerpc.com
Counsel for Petitioners
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Robert M. Palumbos
Counsel of Record
Duane Morris LLP
30 S. 17th Street
Philadelphia, PA 19103
(215) 979-1111
rmpalumbos@duanemorris.com
Paul P. Josephson
Duane Morris LLP
1940 Route 70 East
Cherry Hill, NJ 08003
(856) 87 4-4235
ppjosephson@duanemorris.com

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 14, 2020.

Donna J. Wolf!J
U
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

Notary Nile, Slate at O,lo
My COmmisslon Expires
F bruary 14, 2023

